<html>
<title> - IMPROVING THE QUALITY AND TIMELINESS OF GI BILL PROCESSING FOR STUDENT VETERANS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


IMPROVING THE QUALITY AND TIMELINESS OF GI BILL PROCESSING FOR STUDENT 
                                VETERANS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, JUNE 8, 2017

                               __________

                           Serial No. 115-18

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                    
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-686                        WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5d2c5daf5d6c0c6c1ddd0d9c59bd6dad89b">[email&#160;protected]</a>                     
                    
                    
                    
                    COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                         Thursday, June 8, 2017

                                                                   Page

Improving The Quality and Timeliness of GI Bill Processing For 
  Student Veterans...............................................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     2

                               WITNESSES

MG Robert M. Worley II USAF (Ret.), Director, Education Service, 
  Veterans Benefit Administration, U.S. Department of Veterans 
  Affairs........................................................     3
    Prepared Statement...........................................    23

        Accompanied by:

    Mr. Lloyd Thrower, Acting Information Technology Account 
        Manager, Benefits Portfolio, Office of Information & 
        Technology,U.S. Department of Veterans Affairs

    Ms. Roberta "Robbie" Lowe, Director, Debt Management Center, 
        U.S. Department of Veterans Affairs

Mr. Lernes J. Hebert, Acting Deputy Assistant Secretary of 
  Defense for Military Personnel Policy, U.S. Department of 
  Defense........................................................     5
    Prepared Statement...........................................    26

        Accompanied by:

    Mr. Mark Breckenridge, Deputy Director, Defense Manpower Data 
        Center, U.S. Department of Defense

 
IMPROVING THE QUALITY AND TIMELINESS OF GI BILL PROCESSING FOR STUDENT 
                                VETERANS

                              ----------                              


                         Thursday, June 8, 2017

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Bilirakis, Wenstrup, 
Rutherford, O'Rourke, Takano, Correa, and Rice.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Okay. Let's get this thing started.
    Good afternoon, everybody. I want to welcome you all to the 
Subcommittee on Economic Opportunity's hearing today entitled, 
``Improving the Quality and Timeliness of GI Bill Processing 
for Student Veterans.'' I know we can all agree that the Post-
9/11 GI Bill is an extremely generous benefit, and for decades 
VA's education and training programs have been credited with 
the successful transition and reacclimation of our returning 
servicemembers.
    However, while VA's administration of GI Bill benefits has 
improved over the years, challenges still exist. Oversight of 
the GI Bill and how it is administered to the men and women who 
have served and their families is the job of this Subcommittee, 
and we are here today to discuss ways in which we could improve 
the processing of these benefits to ensure that they are 
properly developed and administered so that our veterans 
receive what they have earned in a timely and accurate manner.
    Processing of the GI Bill claims in its entirety isn't 
solely the job of the VA. They have to work with their partners 
at the Department of Defense to ensure that they are using the 
right Active Duty service information when determining GI Bill 
eligibility and the benefit amount for each individual applying 
for benefits.
    This partnership and open communication between the two 
Departments is vital to certify that a beneficiary is receiving 
their earned benefits in a reasonable timeframe and that they 
are receiving a benefit amount that they have earned.
    Recently there was an internal audit done by VA where it 
found that thousands of already processed claims needed to be 
reviewed again and needed additional information from DoD to 
verify that the veterans' Active Duty service time, which was 
used to process the claim, was accurate and their benefit level 
was correct. Unfortunately, this did result in some delays in 
individuals receiving their benefits, which causes a negative 
impact on the veteran, obviously, or their dependent who is 
waiting for these earned benefits.
    Today, I hope we can learn more about this audit and 
discuss ways to guarantee that there is open communication 
between the two Departments going forward so that future 
beneficiaries are not impacted by incorrect information being 
provided to the VA by the DoD.
    I also look forward to examining a 2015 report done by the 
Government Accountability Office, which identified 416 million 
dollars in post-9/11 GI Bill overpayments in fiscal year 2014 
affecting approximately one in four veteran beneficiaries and 
about 6,000 schools.
    The GAO made eight recommendations to the VA to reduce 
these overpayments going forward and to increase collections of 
this money. However, many of these recommendations still have 
not been implemented, and based on the Department's written 
statement, it is unclear when they will be implemented, if 
ever.
    I do not place all the blame for these issues on the 
education service or its employees, as it is clear that in many 
ways it is a matter of lack of IT resources and the need for 
greater prioritization to be placed on these programs within 
VBA. I know that IT resources are tight, but I believe it is 
time for the VA to prioritize resources for projects that 
provide direct impact to veterans and not other bureaucratic 
priorities or projects that are years behind schedule, millions 
of dollars over budget.
    While I am encouraged by the Secretary's decision to 
modernize the electronic health record, I have to wonder how 
veterans could have been better served by investing even just a 
fraction of the billion dollars that has already been spent 
over the past decade to create a unified health record system 
between VHA and DoD in modernizing other VA systems like those 
that process education claims.
    I hope today Members and panelists alike can discuss ways 
to ensure the education services get the resources and support 
they need to implement GAO's recommendations and to make the 
broader improvements necessary to its systems to reduce 
overpayments and to improve GI Bill processing overall and 
going forward.
    By making the appropriate investments we can bring down the 
opportunity for overpayments and improve the quality claims 
decisions, which will benefit our veterans, the schools, the 
Department, and the taxpayers alike.
    I look forward to hearing from our panelists, and I 
appreciate everybody being here today.
    And now I yield to my friend and Ranking Member, Mr. 
O'Rourke, for any opening remarks he might have.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Thank you, Mr. Chairman, and before the 
arrival of Dr. Wenstrup and Miss. Rice, I thought this was 
going to be a hearing restricted only to Members from Texas. I 
am glad to see that we have been joined by others. I don't 
know.
    Mr. Arrington. Big problems, two Texans, you got it solved. 
That is how I see it.
    Mr. O'Rourke. It is done.
    We are glad you are here, as well.
    I don't think there is much that I can add to the 
Chairman's remarks in outlining the importance of today's 
hearing, and what we are about to learn from the panel before 
us, but I do just want to ensure that we are fulfilling our 
commitments to every veteran who has earned a VA educational 
benefit, that that money is going to its intended use and 
purpose, and in those instances where it does not, that we do 
not unduly or unfairly burden the veteran with trying to recoup 
that money.
    And we also always, and I know the rest of the Committee 
feels the way that I that I do, want to make sure we are 
maximizing the taxpayers dollar, that we are good stewards of 
that money, and that we are accountable for the money that is 
spent. And so, I am hopeful that we are going to get answers to 
some of these outstanding questions raised in the GAO report 
raised by the Chairman's opening statement and other questions 
that the other Committee Members will have.
    And lastly, Mr. Chairman, I want to introduce you and the 
Committee to Cathy Yu, who is sitting to my right. She is a new 
staff director for the minority side of the economic 
opportunity Subcommittee for the VA.
    Mr. Arrington. Thank you, Cathy. Welcome to the team, and I 
look forward to working with you.
    Let's just introduce our guests that are with us today. 
Joining us is Major General Robert Worley, Director of VA's 
Education Service, who is accompanied by Mr. Thrower, Acting 
Information Technology Account Manager for the Benefits 
Portfolio in the Office of Information Technology and Ms. Lowe, 
Director of the Debt Management Center.
    We are also joined by Mr. Hebert, the Acting Deputy 
Assistant Secretary of Defense for Military Personnel Policy 
for the U.S. Department of Defense, and he is accompanied by 
Mr. Breckenridge, Deputy Director of the Defense Manpower Data 
Center for the U.S. Department of Defense.
    General Worley, thank you for being here with us today and 
for your many years of service in uniform with the U.S. Air 
Force and your service at the VA. You are now recognized for 5 
minutes, sir.

              STATEMENT OF MG ROBERT M. WORLEY II

    General Worley. Thank you, Mr. Chairman, and good 
afternoon.
    Mr. Chairman, Ranking Member O'Rourke, and other Members of 
the Subcommittee. I am pleased to be here today to discuss the 
Department of Veterans Affairs Education Benefit Programs and 
our ongoing efforts to ensure education benefits are 
administered appropriately and accurately.
    My testimony will focus on the status of our implementation 
of the eight recommendations of the Government Accountability 
Office report entitled, ``Post-9/11 GI Bill Additional Actions 
Needed to Help Reduce Overpayments and Increase Collections.'' 
I will also discuss the recent education service internal 
quality review audit, as well as resources provided education 
service to improve GI Bill processing times and outcomes for 
student veterans.
    Accompanying me today, as you mentioned, is Mr. Lloyd 
Thrower from the VA Office of Information Technology; he is the 
benefits portfolio manager, and Ms. Robbie Lowe, Director of 
the Debt Management Center for the VA.
    With respect to the GAO report, VA is committed to 
addressing overpayments under the Post-9/11 GI Bill. The 
October 2015 GAO report includes eight recommendations to 
improve the administration of the Post-9/11 GI Bill, reduce the 
occurrence of overpayments, and increase debt collections. VA 
concurred with these recommendations and has been working to 
implement them.
    Of the eight recommendations we have completed the required 
actions and have requested closure of two. Five recommendations 
will be addressed in the reengineering of education service IT 
solutions currently in progress, and for the remaining 
recommendations VA has developed proposed regulatory changes.
    With respect to the internal audit education service 
identified a need to improve the overall quality in internal 
controls of the Post-9/11 GI Bill program due to some trends 
that we identified with equitable relief and administrative 
error cases. Education service requested an audit from VA's 
Office of Internal Controls regarding the determination of 
eligibility percentage levels for Post-9/11 GI Bill 
beneficiaries.
    The Office of Internal Controls reviewed a sample of over 
78,000 cases. Of those, approximately 14,000 cases were 
referred to education service to review for proper accounting 
of the initial Active Duty training and service dates. 
Education service was able to quickly resolve approximately 
3,000 cases without referring them to the DoD and contacted DoD 
to verify the service information on the remaining 11,000 
cases. This verification requirement created a hardship on DoD 
just due to the volume of the cases and limited DoD resources 
to answer these requests.
    As we continue to work the situation, the education service 
reevaluated those 11,000 cases to reconfirm that we would, in 
fact, need information from DoD and then we prioritized the 
cases and reallocated our own resources to focus and process 
these cases as expeditiously as possible.
    Additionally, we put in place new procedures for our field 
claims examiners, and all the claims examiners were retrained 
to ensure effective, consistent, and standardized claim 
development with DoD. As of today there are 466 claims 
remaining pending a decision, and 22 of those are actually 
related to current enrollments where payments are involved.
    Now with respect to IT resources, on September 24th, 2012, 
VA successfully activated end-to-end automation of supplemental 
claims for the Post-9/11 GI Bill benefits through long-term 
solution or LTS.
    This calendar year an average of over 5,200 claims per day 
are processed automatically without human intervention. 
Approximately 85 percent of all Post-9/11 GI Bill supplemental 
claims are either partially or fully automated. Since 
transitioning to sustainment there has been no significant 
development funding for LTS or other supporting systems, 
however, there have been six minor releases to add small 
improvements to fix defects and install security enhancements. 
Additional LTS functionality is needed to further increase 
efficiency and effectiveness in education claims processing.
    VA is prioritizing replacement of legacy systems due to the 
increased costs and risk of maintaining these systems. For 
example, the Benefits Delivery Network, BDN, is the claims 
processing payment, tracking, and disposition system for 
education programs. It consists of antiquated mainframe systems 
and is in need of replacement. These and other risks involved 
in operating in this environment have made the replacement of 
BDN a high priority for VA. There are a number of other legacy 
systems that are in need of modernization and further 
automation.
    VBA and OIT continue to assess these capabilities for 
education service. Our goal, as always, is to improve our 
service to our servicemembers, veterans, and their families.
    Mr. Chairman, this concludes my statement, and we look 
forward to responding to your questions.

    [The prepared statement of Robert M. Workey, II appears in 
the Appendix]

    Mr. Arrington. Thank you, General Worley.
    Mr. Hebert, you are now recognized for 5 minutes. Do I have 
that right, Hebert?
    Mr. Hebert. Hebert.
    Mr. Arrington. Hebert.
    Mr. Hebert. Good French and Cajun name.
    Mr. Arrington. Okay. Mr. Hebert, the floor is yours. Five 
minutes, sir.

                 STATEMENT OF LERNES J. HEBERT

    Mr. Hebert. Yes, sir. Good afternoon, Chairman Arrington, 
Ranking Member O'Rourke, and esteemed Members of the Committee.
    I am pleased to be before you today with Mark and my 
colleagues from the VA. The Department of Defense takes our 
responsibility for ensuring veterans receive their benefits 
very seriously. Together with our partners from the VA we work 
hard to ensure that accurate and timely information is 
processed and available to determine the veteran's eligibility 
for education benefits.
    Since 2003, the Department of Defense has been providing 
daily updates of electronic personnel records to the VA from 
the first day a servicemember signs in until the day they 
depart. Direct lines of communication are critical, as you 
would expect, in an enterprise such as ours. Whether it is a 
regional offices contacting the various service components 
offices for additional data or information or between our 
headquarters, we routinely and almost daily are in contact with 
respect to the Post-9/11 GI Bill. DoD monitors the data 
reported to the VA, but clearly, there is still additional room 
for improvement in this area.
    One of the changes that occurred back in 2009 with the 
implementation of the Post-9/11 GI Bill was a requirement to 
change the certificate of release or discharge from Active Duty 
to the DD214 to incorporate an additional data element. This 
data element was the initial training end date.
    The reason I mention it here is that prior to this point 
this date had no specific purpose with respect to policy or 
statute, and so it took us a little while to get it 
incorporated in many data systems that we have across the 
Department so that the VA could receive it in a timely fashion.
    Incorporating it in 2009[PL1] was an effort to help 
duplicate some of the data flows that were going to the VA so 
they would have instant access to this information.
    Yet if a veteran applies for benefits and this information 
isn't available, we work in an expeditious manner with the VA 
to try and clear this up and provide this additional 
information.
    A second area of focus that we found that was troubling to 
us is that several periods of qualifying service for veterans 
were not being included in the records that were being passed 
to the VA. This primarily dealt with Guard and Reserve Members 
and the systems changes that were occurring in trying to align 
all the systems up so they could properly receive the 
information.
    It stemmed from the elimination of the Reserve Education 
Assistance Program and their subsequent transfer to the Post-9/
11 GI Bill. As a result, the VA claims examiners are currently 
working with the services to ensure all qualifying service is 
accounted for.
    We are committed to resolving these cases and as 
expeditiously as possible. Rest assured the Department remains 
committed to taking care of veterans and ensuring the success 
of the Post-9/11 GI Bill which aids greatly in military 
recruiting and retention efforts. To address gaps in the 
current process, my office, along with the Defense Manpower 
Data Center, will meet with each of the reserve components to 
develop a plan for significant process improvement on our side 
of the equation.
    Going forward we will also institute a governance process, 
a structure that works to make sure that we have quality data 
being passed to the VA and to other institutions that require 
personnel data.
    Mr. Chairman, this concludes my statement. I thank you and 
the Members of the Subcommittee for your continuing support of 
servicemembers, veterans, survivors, and their family members.

    [The prepared statement of Lernes J. Hebert appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Hebert. I will now yield 
myself 5 minutes for questions.
    Mr. Worley, has what Mr. Hebert suggested he would do to 
improve the coordination and sharing of information, is that 
going to be sufficient to solve the challenges? And I can 
imagine there will always be some challenges in coordinating 
two behemoth bureaucracies, quite frankly, and so I want to be 
reasonable here.
    But what are your thoughts about that, and what would you 
emphasize from your perspective from VA's perspective needs to 
happen, IT systems, standardizing process, governance, what do 
you think? A, how do you react to what he has said, and, B, 
what would you emphasize or add?
    General Worley. Mr. Chairman, I just like to start off by 
saying that we have a very solid relationship with DoD in this 
regard. We have had computer matching agreements with them 
since at least 1990, if not sooner, earlier than that.
    I think the steps that Mr. Hebert has outlined will very 
much help as we go forward. We have identified a person in my 
staff to be my lead, if you will, on working with the DoD, 
whether it be through a working group or this governance 
structure, and I think there are a number of areas that we need 
to focus on with respect to the data sharing itself, the 
sources, and just, you know, basic communications.
    I would also just point out to you, sir, that just to give 
you a scope, since this fiscal year 2017 we have had about 
50,000 or so cases that we have requested information from DoD. 
And the timeliness of their response to us is, for the most 
part, averages 10 days or less, so it is more issues related to 
how quickly their, I think, databases get updated and our 
tapping into those. There may be better ways that our people 
can tap in more directly to their databases.
    Mr. Arrington. That seems to me like a more reasonable and 
commonsense solution is to provide access without being able to 
alter the data in a way that is secure, obviously, but just to 
tap into that database.
    I mean, 10 days, I imagine you could shorten that 
significantly if you could just tap into it from the VA side 
without a lot of moving parts on the DoD side. I mean, am I 
wrong about that? That is just an observation.
    General Worley. It is something we would want to explore 
with DoD as part of this working group.
    Mr. Arrington. Is that something DoD would be willing to 
consider?
    Mr. Hebert. Absolutely, Mr. Chairman. We already have an 
application out there that is available to the VA. They can log 
in and check out all the records of all the military personnel 
that they would like to on a case-by-case basis, and we are 
also providing the data feed.
    The challenge comes in making sure that the records are 
complete in a way that is digestible to the VA, and so, but 
absolutely, we are willing to work with the VA on additional 
opportunities in that regard.
    Mr. Arrington. I have in my notes that VA employees have 
said that they are still seeing problems receiving needed 
information from the services in a timely manner. I don't know, 
you know, that is anecdotal. I don't put a lot of stock in 
that, quite frankly.
    I would like to know what the numbers are. I would like to 
know what empirical data from an internal audit or from the 
GAO. Is there any numbers, hard numbers, to measure the--
because there are different sides to this equation--but the 
component of the DoD coordination, is there empirical data to 
suggest that that part is inefficient or broken?
    General Worley. Mr. Chairman, we track, and that is where I 
got the 10 days from, we track from the time we send the 
request to the DoD to their response, and the range is wide.
    I mean, it goes from same day to 50 days, but on average it 
is about 10 days for them to respond to us with the information 
that we are asking for, which is typically either character of 
service, but more often it is Guard and Reserve kinds of 
information with respect to service dates and the authorities 
under which guardsmen and reservists are activated.
    Mr. Arrington. Well, I am going to yield to my colleague. I 
have got several questions on the IT systems front. They may 
cover it for me. So with that I yield 5 minutes to the Ranking 
Member, Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. General Worley, what 
is the total dollar value of outstanding uncollected 
overpayments?
    General Worley. I think I would have to defer to my debt 
management center folks, if I could.
    Mr. O'Rourke. That is good with me.
    Ms. Lowe. Good afternoon.
    Mr. O'Rourke. Hi.
    Ms. Lowe. My system at the Debt Management Center retains 
the information on debts that veterans owe. For fiscal year 
2016 I show an outstanding balance of $107 million. For fiscal 
year 2015, an outstanding balance of $49.5 million.
    Mr. O'Rourke. Are both those numbers overpayment?
    Ms. Lowe. They would be monies that veterans or schools owe 
the VA, yes.
    Mr. O'Rourke. Okay. So, sorry, repeat fiscal year 2016 
again for me?
    Ms. Lowe. Fiscal year 2016 was $107 million. Fiscal year 
2015, $49.5 million. Fiscal year 2014, $31 million. And fiscal 
year 2013 and all prior years is $44 million. And I do want to 
mention on the--
    Mr. O'Rourke. And for each of those years that you gave us, 
this is outstanding uncollected overpayment.
    Let me ask you this next question. Where does that money 
reside? For example, is it with the institution? Is it with the 
veteran, or do we know?
    Ms. Lowe. I do believe I have those details.
    Mr. O'Rourke. And what I am trying to get at is I want to 
make sure that if it is with the institution, we are going to 
the institution to collect the money, instead of asking the 
veteran for the money.
    Ms. Lowe. Yes.
    Mr. O'Rourke. But see if you can give me the answer to 
that.
    Ms. Lowe. Yes, sir. For example, in fiscal year 2016 
veterans owe us for books and supplies of $3.7 million. The 
veterans owe us for housing debts $47.6 million. For tuition 
and fees they owe us $49.1 million. And schools owe us 
approximately $6.9 million.
    Mr. O'Rourke. And in every instance where you said the 
veteran owes 3.7, 47.6, 49.1 million, that money has been paid 
to the veterans. It was at one point in their possession. It is 
not with the institution held in the veteran's name?
    Ms. Lowe. Correct. Well, VBA makes the determination on who 
owes the money, and, for example, in the area of tuition, 
whether the school owes the money, or the veteran owes, it 
depends on the reason why. So, for example, if the veteran 
dropped the course and never attended it, it might be the 
school that owes it, but, again, I would defer that to General 
Worley to answer that question.
    Mr. O'Rourke. And the way I ask the question is important 
to me. I want to know where the money resides, perhaps a 
different question than who owes the money. So it may be 
legally that the veteran owes that money back, but the money 
never flowed through to the veteran is held by the institution 
for the credit hours that were never served to the veteran.
    So I don't want the collections agency going to the 
veteran, I want it going to the institution. And I may not be 
making myself clear. Does that make sense?
    Ms. Lowe. Yes, it makes sense. Unfortunately, VBA education 
service determines the debts, and so they would determine 
whether the veteran owes the money or the school, so I would 
defer to General Worley.
    Mr. O'Rourke. Okay.
    General Worley. If I could, the way the debts are 
established, as she mentioned, has to do with when the change 
is made with respect to their rate of pursuit. So if an 
individual veteran is taking 12 hours at a school and the term 
starts after the start of the term, anything they do with 
respect to reducing their rate of pursuit or whatever results 
in a debt against the veteran because the school was paid on 
behalf of the veteran.
    Mr. O'Rourke. Okay. But let me stop you there. So let's use 
that example. Let's say that a veteran signed up for 12 hours. 
First day of school they are sitting in 12 hours' worth of 
classes. Second day of school they say, you know what, for 
whatever reason, I am going to take it down to four hours. The 
school was paid for the 12 hours. That money never flowed 
through to the veteran. Whose door will be knocked on for the 
collection for the balance?
    General Worley. In that case, the veteran's.
    Mr. O'Rourke. Even if the money never came to them?
    General Worley. That is correct, sir.
    Mr. O'Rourke. And so how do we change that so that it is 
the school who actually has the money who pays the money back 
instead of the veteran?
    General Worley. The reason it is set up the way it is 
because the VA does not get in the middle of school refund 
policies. There are many different refund policies amongst the 
schools.
    Mr. O'Rourke. Could you get in the middle of it? I mean, 
you have the leverage. You are paying out hundreds of millions 
of dollars to these institutions and say a condition for 
receiving this money is that if the veteran does not go to the 
classes for which that money was paid, you the school are on 
the line for it, you will pay it back to us. You have the 
facilities and capacity to make that transaction much more 
quickly and efficiently than does the individual veterans.
    And I have got to think from a collection standpoint that 
is a much more effective way to get that money back than 
finding thousands of veterans spread out all across the 
country.
    General Worley. That is the intent of the GAO's 
recommendation number eight, which we concurred with. That, 
like several of the other ones, is a fairly big lift with 
respect to the IT changes we need to make in the system, but, 
yes, sir, that is part of the GAO recommendation.
    Mr. O'Rourke. Thank you. I have exceeded my time. I yield 
back to the chair.
    Mr. Arrington. Thank you, Mr. O'Rourke. I yield 5 minutes 
for questions to Mr. Wenstrup.
    Mr. Wenstrup. I would like to yield my time right now to 
Mr. Bilirakis.
    Mr. Arrington. Mr. Bilirakis, you have 5 minutes.
    Mr. Bilirakis. Thank you. I appreciate it very much, Mr. 
Chairman. Thank you again for your testimony, as well.
    Mr. Worley, VA should be commended for their efforts to 
partially automate the supplemental claims through LTS. 
However, it is my understanding that the processing of original 
GI Bill claims is not automated and still takes just about as 
much time as it did back in 2009. What do you see as the 
impediment to completing the long-term solution or LTS and 
increasing the number of claims that can be processed without 
human intervention?
    And then what plans does VA have in place to finish the LTS 
and finally automate original claims? Again, how much do you 
think this would cost, as well? If you can answer those 
questions for me, I would appreciate it.
    General Worley. Congressman Bilirakis, thank you. Just to 
provide a little input on the timeliness. Original claims today 
are processed in fiscal year to date in 2017 in about 21 days. 
That is actually much better than it was in 2009 when we didn't 
have automation of any kind. Much better than even in 2012 when 
it was probably 30 plus days.
    Supplemental claims with automation on average for all 
benefit types is running about 6 or 7 days. So we are pretty 
proud of the improvements that we have made with respect to 
serving our veterans and timeliness of processing the claims.
    You are right. Original claims are not automated, and I 
would say it is something that originally when the long-term 
solution was being developed, that was something that was 
desired. The focus was put on supplemental claims because that, 
quite frankly, is 85 or so percent of our business, and that 
was going to be the biggest bang for the buck.
    As always, it comes down to resources and priorities kinds 
of discussions within the VA, and so we have got business 
requirements laid out, and I think the estimate that SPAWAR 
gave us, which was the original contractor, they are no longer 
on contract, and then I will defer to Mr. Thrower, but was I 
think 30 million to automate original claims and provide some 
of the other functionalities that we needed.
    Mr. Bilirakis. Thank you. Let me ask another question. What 
can this Committee do to encourage the Office of Information 
and Technology to provide additional funding to the education 
service to improve the GI Bill processing? If you can answer 
that question, I would appreciate it.
    General Worley. What can--
    Mr. Bilirakis. Well, what can this Committee do to 
encourage OI&T, again, to provide additional funding to the 
education service to improve the GI Bill?
    General Worley. May I refer to my IT colleague?
    Mr. Bilirakis. Yes, what can we do?
    Mr. Thrower. Hello. Well, thank you for the question.
    Mr. Bilirakis. Sure.
    Mr. Thrower. I would say that the first thing I would like 
to be clear is that within OI&T we established the priorities 
for what our development efforts in any given year in 
conjunction with our partners in VBA. We do not do this 
unilaterally. It is every year a rack and stack of all of the 
challenges that are facing the administration, each individual 
administration, and we determine which are the highest 
priorities.
    Certainly through 2012 getting LTS up and running was one 
of our number one priority. In the last 2 to 3 years our 
priority has been automating the comp and PIN process. We are 
now actually moving to a very different strategy this year with 
the constraints that we are dealing with, with funds.
    We have put a focus in this particular year on managing 
some very important aspects--well, not only focusing on the 
electronic health records, but also, the management and the 
disposition of quite a few really important legacy systems. 
Within the benefits space education systems, well, the Benefits 
Delivery Network, BDN, is right at the top of that list. We are 
right now in the process of doing an analysis and reengineering 
effort on all education systems looking to see where they 
stand.
    We know that we have some legacy systems--legacy 
environment there that needs to be cleaned up in order to make 
sure that all of the processes going forward can be uplifted 
and modernized very effectively. A lot of the things that the 
GAO report has asked for are things that during this process 
over the next year, year and-a-half we are going to be 
implementing as part of that reengineering effort.
    We have about, I think, $31 million in the budget for 
fiscal year 2018. We have some residual funds that we are 
devoting to that this year. As I say, we are building the 
engineering plan and figuring out when we can bring these 
individual capabilities online now.
    Mr. Bilirakis. Very good. Thank you. Mr. Chairman, could I 
have an additional 10 seconds?
    Mr. Arrington. Yes, sir.
    Mr. Bilirakis. Okay. Thank you very much. I appreciate it.
    I introduced House Resolution 1994, the Vocational 
Education and Training Enhancements for Reintegration 
Assistance Act, the Veterans Act, asked Congress to address 
this very issue, and we are funding it for IT $30 million. My 
bill would direct the secretary of VA to make improvements to 
the information technology system, which would surely improve 
the quality and timeliness of adjudicating these claims.
    So, again, without objection I have a letter I would like 
to submit, Mr. Chairman, before the record.
    Mr. Arrington. Without objection.
    Mr. Bilirakis. Thank you very much, and it is from the 
Association of the United States Navy. So and they are 
supporting my bill, so I would like to discuss that with you, 
and we have got to fix this.
    So thank you very much, and I apologize for going over Mr. 
Chairman.
    Mr. Arrington. Thank you, Mr. Bilirakis. Now I recognize 
Ms. Rice and give her 5 minutes for questions.
    Miss Rice. Thank you, Mr. Chairman.
    I guess this question would be for Mr. Worley. Do you think 
that a wider expansion of the VSOC program and educational 
institutions could be one supplemental initiative utilized to 
further the VA's efforts to ensure that education benefits are 
administered appropriately and accurately for student veterans? 
We have some VSOCs in our area, but we are still hoping to get 
more. I know it is a program that could use some expansion but 
would you see that as a benefit?
    General Worley. It is difficult for me to comment on it 
because I am not responsible for the VSOC program. That falls 
under the Vocational Rehabilitation and Employment Service in 
VBA. I know there have been many discussions about expanding 
VSOC, but I am not the expert on VSOC itself.
    Miss Rice. I am wondering if there is any data to show that 
schools, where there are VSOCs, where there is an ability for a 
student to get some advice and counsel, shows less of a--those 
students have less of a likelihood of getting mixed up in this 
whole quagmire of, you know, tuition repay and all that kind of 
stuff?
    General Worley. I understand.
    Miss Rice. You don't have any--
    General Worley. I understand the question. I think we would 
have to take that one for the record, ma'am, if we could, and 
we can get back and answer you.
    Miss Rice. Yes, I would be interested to see if that has 
any--
    General Worley. I would say just along those lines, as you 
know, the people that deal directly with our beneficiaries at 
the schools are the school certifying officials, kind of our 
generic term for veteran certifying officials, and we have 
extensive training opportunities and resources for them to work 
with the veterans, make sure they understand the debt potential 
for dropping classes and those types of things.
    As well as we work with them on the dual certification 
piece that was recommended in the GAO report. So there are many 
opportunities, and we see them as kind of the front line in 
terms of providing this kind of information to our veterans, 
but certainly the VSOC counselors that are on those campuses 
can provide that kind of important information, as well.
    Miss Rice. So it seems I have heard a lot about the IT, IT, 
IT, IT, and what concerns, I am sure, everyone on this 
Committee, is that there is no money for IT. I mean, the budget 
really kind of--it is not there. So we need to be having 
conversations with Secretary Shulkin and things like that, but 
it seems to me like a lot of the issues that we are talking 
about could be rectified by a bigger investment in IT.
    So, Mr. Worley, I guess you would be the right one for me 
to talk about joint services transcripts?
    General Worley. I am sorry?
    Miss Rice. Can I talk to you about joint services 
transcripts?
    General Worley. Well, I know a little bit about joint 
service transcripts. That is really a DoD issue.
    Miss Rice. Oh. So maybe I should ask Mr. Hebert? Well, 
basically--
    General Worley. I can try to answer your question.
    Miss Rice [continued].--some members before they start 
their outside the military education have actually gotten 
credits that are transferable to schools that they plan on 
attending using GI funds.
    General Worley. Sure.
    Miss Rice. And it seems to me that we should try to 
coordinate that along with the payment to schools of the 
tuition, that we should incorporate some automatic transferal 
of joint service transcripts because another avenue for savings 
could be if the veteran knows themselves that they actually 
have these credits that would only require them to maybe go for 
3 years as opposed to four, that is significant savings if you 
add that up down the line.
    So I would just--I think we have to have a conversation 
about that to see if--
    General Worley. Yes, ma'am. I would say that is a great 
point, and I would say in order to be a GI Bill approved school 
you have to have policies that assess prior credits wherever 
they come from.
    Miss Rice. Right.
    General Worley. And there has been a lot of focus on this 
in the higher ED community, GI Bill community, if you will, 
with respect to providing, you know, it is a school decision 
essentially. Individual schools have different policies related 
to what credit they will accept, but they have to have a policy 
to review prior credit wherever it comes from and apply that so 
that our beneficiaries can make more efficient use of their 
benefits.
    The joint service transcript is a key part of that coming 
out of the service when they transition. They might have other, 
you know, other credits that they could get just for military 
training itself that they go through.
    So those things are looked at quite significantly, and, 
again, to be a GI Bill-approved school you have to have a 
policy that says you review those prior credits and give them 
where appropriate.
    Miss Rice. So I think if I can just make this one point, 
Mr. Chairman, I think that if we require schools to have that 
process, we should make sure they get those transcripts, right? 
Otherwise, why are we requiring them to have that evaluation of 
prior credits? Okay. Thank you.
    General Worley. I understand.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Arrington. Thank you, Miss Rice, and I would like to 
recognize Mr. Rutherford for 5 minutes of questions. Mr. 
Rutherford?
    Mr. Rutherford. Thank you, Mr. Chairman. Gentlemen, if you 
could, one area that I have heard complaints about in my 
district is the VA Work Study Program and the fact that there 
is actually no automated or notification system for this 
program like there is for the GI Bill processing, and that 
means that these students all have to scan or email all of 
their documentation. And the lag time in the payment as a 
result of that often has some serious impact on these students 
who depend on that money.
    Can you discuss the challenges with the Work Study Program 
and how we can improve that for our student veterans, as well?
    General Worley. Yes, Congressman. The Work Study Program, 
as you have indicated, is a great program for student veterans 
that allow them an opportunity to make some money and do work 
that relates to veteran service, if you will, at various 
locations, not just even at schools. The system for paying them 
is, as you said, it is not automated. It is not part of the 
long-term solution automation. It is, you know, it is 
computerized, if you will, but, yes, to get the hours that are 
worked that comes in either by email, by fax, by through our 
ask a question on our Web site, and then is put into our 
management or image management system and then the work is done 
by a small team to go in and to pay those.
    We have been looking at this more closely with respect to 
some of the things that you alluded to on some timeliness 
problems. First thing we need to do is clean up the way we 
actually account for the timing of how we process these claims. 
We have made some different decisions 2 or 3 years ago with 
respect to the frequency of paying the work-study employees, 
and, again, we work to try to do this as quickly as possible, 
but we are focusing more on it to ensure the timeliness and 
that these individuals are paid quickly. As quickly as we can.
    Mr. Rutherford. Just to follow up briefly, are there any 
plans to make some type of automation available for submission?
    General Worley. It is certainly something--we would like to 
have all these little one standalone systems rolled into the 
bigger automation, absolutely.
    Mr. Rutherford. Okay. And actually that is a good segue 
into my next question. I see where Secretary Shulkin has 
decided to purchase the DoD a system that is apparently an IT 
system that is apparently congruent with the DoD's system 
because they use it now. I don't know that that has any--well, 
is there any potential there for that to help with the GI Bill 
post-GI Bill folks or any tie-in to the schools at all or is it 
too early to know that?
    General Worley. That has to do with electronic health 
records, and it is out of my lane.
    Mr. Rutherford. I wasn't sure what the limitations were on 
it. Okay. Thank you.
    I would like to point out one other issue. According to a 
lot of our veteran military folks, our resource service and 
universities find it almost impossible to get anyone from the 
VA to answer the phone between the third week of August and 
mid-September because everybody is, and not that they are not 
working hard, in fact, they are probably working incredibly 
hard, and that is why they are not answering the phone, is VA 
trying to address this?
    You know, that is a very critical time obviously. You have 
all these registrations going on. Is there any plan to try and 
beef up personnel during that time or somehow address that 
workload?
    General Worley. Congressman, if I can get perhaps a little 
more fidelity on what kinds of, you know, what kinds of calls 
were being made, I could probably answer that question better, 
but we have an education liaison representative in each State 
or assigned to each State, and sometimes that is a one-deep 
position for all the institutions in a given State, and they 
are the usually the first resource a school certified official 
will go to try to get an answer to a question.
    So in that regard, yes, we are thin, a bit thin on ELRs, 
especially, again, during that period of time or if there is a 
new school certifying official, it is a complicated benefit, 
and there are a lot of nuances to it. So if it is something 
more generic with respect to the benefits and that kind of 
thing we do have the education call center in Muskogee, 
Oklahoma, and they do a great job.
    There are sufficient resources there to handle the call 
volume. Even, I mean, there are issues during the peak times 
like early first part of the month or early September for 
example.--
    Mr. Rutherford. I think this was specifically about the 
ELRs and their accessibility. Thank you. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Arrington. Thank you, Mr. Rutherford. And now I would 
like to recognize Mr. Correa and give him 5 minutes for 
questions.
    Mr. Correa. Thank you, Mr. Chairman. Ladies and gentlemen, 
welcome today. Thank you for your hard work for all of our 
veterans.
    Served in the California legislature for a number of years, 
and, unfortunately, the last few years we have had very 
disturbing developments with private for-profit institutions of 
education. Some have closed down leaving a lot of students a 
lot of debt, and as you know, student debt is the only debt you 
cannot essentially forgive through bankruptcy. Very unfortunate 
situation.
    So my general question to all of you is, can you do 
anything, should we be doing anything to tighten up as to what 
educational institutions in this country are eligible to 
receive the GI revenues, the GI funds from our students, and I 
say that from two perspectives.
    Number one, a lot of these institutions promise, you know, 
full employment or a great job after you graduate, and they are 
not there.
    And, number two, related to the reimbursement policy. 
Education can be said to be a business. Taxpayer dollars are 
being invested in these veterans to educate them. We want to 
make sure they are getting a good deal.
    And so I am trying to figure out how can we better vet 
these educational institutions to make sure that, for example, 
policies like automatic reimbursement should the veteran drop 
out, you know, before the semester is over is part of their 
policy to be part of our system of GI benefits.
    General Worley. Thank you, Congressman Correa. As you know, 
in order to administer the Post-9/11 GI Bill in accordance with 
the statutory requirements, very many types of schools are 
eligible, whether they be public, private for-profit, private 
not-for-profit, vocational schools, that is the thing, that is 
one of the great things about the GI Bill is the breadth and 
the magnitude of opportunity there for veterans and 
servicemembers and families to use.
    I acknowledge your comments about some institutions and 
some abrupt closures in recent history, and I think as you are 
aware currently--under the current statute the VA has no 
authority to either continue paying housing for a little while 
in a situation like that or to reinstate entitlement that 
someone may have lost or perhaps wasted at an institution that 
closes like that. And, again, as you know, many times those 
credits don't transfer anywhere.
    So what we focused on is not trying to identify a good 
school or a bad school and try to be the judge of that as a 
Department. What we have tried to do is focus on doing 
everything in our power to create informed consumers and 
provide information about these things to our veterans who are 
making these educational decisions for their future.
    Things like articulation agreements with respect to schools 
accepting other credits, these debt issues, looking at the 
graduation rates of a school and those types of things, trying 
to help our beneficiaries make good decisions up front because 
as you know you get 36 months, and that is it for the GI Bill.
    Mr. Correa. And that is why, sir, I think it is important 
to provide education, and I am not trying to have a 
paternalistic government here in terms of telling our vets what 
to choose and what not to, but some of them these students many 
times are victims of having been sold a basket of goods that 
actually is not there. It is just a marketing and sales ploy, 
and ultimately they get hurt as well as the taxpayer.
    So I know you don't have the legislative authority to delve 
in this area, but I would ask you to think about coming up with 
a system to provide additional safeguards for veterans.
    With that, Mr. Chair, I yield the remainder of my time.
    Mr. Arrington. Thank you, Mr. Correa.
    And now I recognize Chairman Wenstrup and give him 5 
minutes for questions. Thank you.
    Mr. Wenstrup. Thank you, Mr. Chairman. I want to thank you 
all for being here, and I want to start with you, Mr. Hebert. I 
am just curious over the last several years what kind of 
technological improvements have we seen when transitioning 
information from active duty to VA, especially for guard and 
reserves.
    I mean, I know 10 years ago when I came home, here is your 
DD214, and later I did get a letter from VA saying, hey, you 
need to check in with us. Is some of this being automated now, 
and maybe you both want to address that somewhat, but is it 
being automated at this point where it kind of goes 
automatically or how is that working?
    Mr. Hebert. It does. As I mentioned earlier, we do send 
data flows each day to the VA.
    Mr. Wenstrup. What is in that?
    Mr. Hebert. If I may, the expert is sitting right to my 
left.
    Mr. Wenstrup. It works for me.
    Mr. Breckenridge. Thank you, Congressman. Yes, since about 
2003, the Department of Defense has maintained a DoD and VA 
data share with VA so that in realtime we update the data that 
is received from the services.
    So Defense Manpower Data Center receives personnel data 
feeds from the service personnel systems. We process it through 
this DoD/VA data share and in realtime update those records in 
what is called VADIR, the VA/DoD Information--
    Mr. Wenstrup. What is in that?
    Mr. Breckenridge [continued]. It is the service personnel 
record for all the benefits, including the education benefits 
that are required for VA.
    So as soon as we get the first day of a servicemember's 
personnel record that is available, that is transitioned to VA. 
And then we continuously update it until they separate or 
retire from the service.
    Mr. Wenstrup. And does the troop get access to that data 
themselves? Is that something they can see, print out? I mean, 
you talk about benefits especially, is that something that is 
accessible to them?
    Mr. Breckenridge. The veteran?
    Mr. Wenstrup. Sure.
    Mr. Breckenridge. The veterans do not have direct access to 
it, but they do have access to it through the systems, which 
are used by VA and within the Department of Defense and 
servicemembers, as well.
    There is a second system which does provide direct access 
to their online service record, the DEPRA system, so they can 
also see their online service record as well both during 
service and after they have left the service, and that is an 
actual image system which has been provided since that same 
time period.
    Mr. Wenstrup. So what is the process for Guard and Reserve, 
they will go active for a year and then they are going home. 
Are they aware of what is going over to VA? I mean, how 
informed are they? I mean, I just am speaking for me, I was 
kind of lost, right, from I got a letter from VA saying come in 
and get your physical.
    Mr. Hebert. I think depending on the seniority of the 
servicemember there have varying degrees of education on 
exactly how much we interchange with the VA. I think most 
people are not cognizant of it. I think the key, particularly 
with the Guard and Reserve, is after they complete their 
deployment or mobilization they get back and getting that 
updated in the record typically is not something they are very 
urgently pursuing.
    Mr. Wenstrup. I agree.
    Mr. Hebert. I want to get back with mom and the kids, and I 
want to get reacclimated with my unit and my family, and 
sometimes that gets--there is a delay there. It required some 
servicemember intervention. We can do a lot of things on our 
own, but they need to validate it so that we can attribute that 
service to them.
    But the largest problem at least at this point in time that 
we have identified is the handoff of the data between all the 
systems and being able to transition the data in a way that 
each system all the way into the VA systems can recognize and 
have the completeness that they need in order to make that 
eligibility decision, and that is where we are going to focus 
and our efforts in the future because if we can get the right 
data to the VA, such that it doesn't require manual 
intervention, then they won't have to ask DoD for the data.
    And the smaller that population, well, the quicker we can 
respond to those requests because we have now whittled down the 
number of requests that we are getting for manual intervention, 
if that makes sense.
    Mr. Wenstrup. Yes, I appreciate that goal, and thank you 
very much. I yield back.
    Mr. Arrington. Thank you, Mr. Chairman. And now I want to 
recognize Mr. Takano and give him 5 minutes for questions.
    Mr. Takano. Thank you, Mr. Chairman. My question is for Mr. 
Worley. Regarding the GAO recommendation that the VA send out 
more emails or use e-benefits to communicate with veterans in 
addition to snail mail it just seems like that is commonsense.
    These days people change their mailing addresses a lot more 
often than their emails, and it is just, I think, a better way 
to reach people by email in order to communicate about 
important information. So I am glad that the VA is trying to 
implement supplemental email communication, but I understand 
for nondebt collection purposes, the VBA or the Veterans 
Benefit Administration does not have to use snail mail at all, 
that, in fact, VBA conducted a study that found that using 
electronic communication would save a certain amount of money 
over a 5-year period if it replaced snail mail.
    Do you know how much money the study the study found 
electronic communication would save, is that number something 
that you know?
    General Worley. I don't have that number at my 
fingerprints--my fingertips, not my fingerprints--Congressman. 
No, we concur with that recommendation. And I think enterprise-
wide in VA, we are moving in that direction. We didn't always 
require an email address on applications for GI Bill. That 
changed a couple of years ago, but nevertheless, our systems 
are not set up to do that easily.
    With respect to some of the closures and some of the 
schools where there have been negative impacts to veterans, we 
have been able to go and collect an email address--it typically 
gets a large portion of the students'--and try to communicate 
with them proactively that way.
    But for regular mail, yes, our notifications need to be in 
writing. It can be electronic. And we are, IT and the 
Enterprise in VA is working toward that.
    Mr. Takano. Well, I understand that fixing these problems 
at the VA, like any other problem at the agency, is going to 
require dedication and creativity in the budget constraint 
environment in which we find ourselves. And nothing is going to 
get better if the agency continues to do things like conduct 
studies, but then just put them in a drawer someplace and not 
try to do anything productive with the study.
    So I would like to see the VA commit to revisiting the 
results of this study and potential implementation plans. And I 
hope you will provide a report back to the Committee, because, 
you know, you have already done a study. It already showed you 
already have other parts of--do you want to respond? Go ahead.
    Ms. Lowe. Yes. I would just like to add that for the Debt 
Management Center, 38 CFR 1.911 states that we provide it in 
writing, and notification is sufficient when sent by ordinary 
mail directed to the debtor's last known address and not 
returned as undeliverable by postal authorities.
    So, to make email dreams come true, we would need help.
    Mr. Takano. But I was asking about nondebt communication.
    Ms. Lowe. Oh, just nondebt communication? Okay, my 
misunderstanding.
    Mr. Takano. I understand that nondebt communication for 
purposes--that the VBA does not have to use snail mail. I 
understand that in debt collection, you have a different level 
of standard there.
    But it seems to me that if we are trying to facilitate 
communication with our veterans that we have at least your own 
study--a previous existing study has shown that there is a 
savings to be had. And, you know, I would hope that you would 
commit yourselves to moving down that path and then report back 
to this Committee your results.
    Let me just yield back.
    Mr. Arrington. We will make sure and follow up on that.
    Mr. Arrington. I think that is a good point. I think it is 
a great point, actually.
    I will yield any more time that my colleague Mr. O'Rourke 
needs for further comments and questions.
    Mr. O'Rourke. Thank you, Mr. Chairman. Just a quick 
question, General Worley.
    I think there are a lot of bigger questions that were 
raised that I think you are either coming back to us on or we 
may need to talk to the Secretary about, especially some really 
good questions about IT integration with DoD. And we know every 
servicemember and every veteran comes through DoD, and we want 
those systems to work more closely, as they will on the health 
record sharing side, thanks to the decision Secretary Shulkin 
made there.
    But--and correct me if I am wrong--I understand that one of 
the things that you are working on to make it clearer to 
veterans about their obligation is including a line or a 
paragraph in the letter that goes out to veterans with their 
award saying, you are responsible for the difference if you 
drop classes. And that that apparently took a year to approve 
that language and that language is still not in the letters 
that are going out.
    And we hope--and this, again, is my understanding, you 
correct me if I am wrong--that the VA is going to be able to 
get that in place by August, which is obviously cutting it 
really close for this next school year.
    Correct me if I have the wrong impression or explain to me 
why it takes that long to do that and whether or not we will be 
able to get that information, important information out to 
veterans before the start of this next school year?
    General Worley. The award letters have for a long time, 
prior to even I think the GAO report, had a bold box in it that 
says, you are responsible for any debt created with respect to 
changes in your rate of pursuit, or words to that effect.
    I think what the GAO is trying to do, a couple of things 
with respect to their recommendations related to letters, 
whether they be award letters, debt letters or whatever, is to 
give our beneficiaries the total picture in one place: Why the 
debt was established, in the case of a debt; and how to pay it 
back.
    With respect to award letters, it is something that 
everybody gets every time they enroll and a certification goes 
through. So it is a good means--we will get to the electronic 
eventually--to communicate that kind of thing with respect to 
the debt. So what they want us to do is put more information in 
the letter related to that debt, related to the potential for 
debt, you know, incurring debt. So there is more now in those 
letters.
    It is more complicated, and I could ask Mr. Thrower to 
maybe give more detail, but it is not a Word document that we 
can just go in and change a few lines and hit, you know, save. 
These are letters that are generated as part of the long-term 
solution. They have information in them, data in them that 
relates to calculations and a whole set of things.
    So it is a nontrivial event to try to make significant 
changes in these letters. Should it take a year, year and a 
half? No, sir, it shouldn't. But nevertheless, it is more 
complicated than it looks on the surface.
    Mr. O'Rourke. Yeah. Well, I appreciate you addressing it. 
And I don't know if I have the answer or you can give the 
answer that we are looking for. And I think one of the 
challenges we have, and it is not the fault of present company, 
but when we have these ancient IT systems, we can just keep 
saying, well, we have got this ancient IT system and it is 
really hard to update that stuff. So is a year a really long 
time? I don't know. Maybe the system is so old, it takes a year 
to do this.
    It is just hard for us to hold you accountable, hard for 
veterans to hold us accountable when we can fall back on that 
excuse. And I share the concern raised by others, including 
Miss Rice, that we are not seeing the investment in those 
systems.
    I think a really good conversation would be, you know, hey, 
Beto, quit banging on me for not being able to get this stuff 
done quickly enough. We are on an old system. What I need you, 
as a Member of Congress, to do is authorize X and have the 
appropriators appropriate the money for X so that we can 
finally get this done.
    I would love to have that conversation so that my successor 
is not here in 4 years having the same conversation with you or 
your successor. So an open request to you and to the Secretary 
to tell us what you need as an investment to once and for all 
fix the IT system so that that is no longer an excuse. That 
would be my request.
    Thank you, Mr. Chairman, for holding this hearing.
    Mr. Arrington. Thank you, Mr. O'Rourke.
    I am going to yield myself 5 minutes for additional 
comments and take off on what you said.
    I couldn't agree more. And so let me start probably where I 
should have from the outset. General, what is a goal, what is a 
good and reasonable goal for a timeframe? You mentioned 21 days 
to process original claims. You are down to 6 days on 
supplemental. What is a good goal on the original claim side?
    General Worley. Mr. Chairman, my goal would be to model it 
similar to loan guarantee. An individual goes into e-Benefits 
or perhaps into future vets.gov, loads in their information and 
hits send/submit, and within a few seconds they get back a 
certificate of eligibility. That would be my dream, then it 
would be instantaneous.
    I mean, I think, you know, that would take a lot, but that 
is the future. No one is complaining to us right now, however, 
about 21 days other than the situation that you mention where 
there are longer delays because of whatever situation on a 
subset of the claims.
    So it is hard to know. What do the veterans want? We have 
improved timeliness over time. We are not getting a lot of 
complaints except, again, unique situations. And the 
supplemental claims, again, which is 80, 85 percent of what we 
do, are being processed right through the system very, very 
quickly.
    Mr. Arrington. My understanding is this LTS was being 
implemented, and then there was a shift in priorities and so it 
wasn't fully implemented, so we didn't realize the full value 
of that IT solution. Is that a fair assessment?
    General Worley. I think that is a fair assessment. I mean, 
again, when you have limited resources, you focus on where you 
get the biggest bang for the buck. And at the time, it was 
supplemental claims and all that went before that. There were 
six major releases, starting from March of 2010 till September 
of 2012, to get us to where we are.
    And I think I would--you know, as we are talking about 
antiquated systems, I would maybe defend LTS as one of the more 
recent and effective systems. I mean, I don't know what other 
business line can make the claim that half of their claims get 
processed untouched by human hands, based on a complicated 
benefit and the rules-based system that we have.
    So LTS, when that went into effect in 2012, it was truly a 
game-changer, in terms of timeliness and service to our 
beneficiaries. Was there more we wanted to do? Absolutely. I 
mean, there is some small subset of supplemental claims we 
don't automate today and then the original claims.
    The original claims are 10 to 15 percent of what we do. 
Obviously, that is a critical stage in the process, because we 
are determining their eligibility level and all of that, and it 
is a little more complicated because we need to know service 
data and those types of things. But that is very much something 
that can be automated, and that is our next big priority I 
would say after BDN.
    Mr. Arrington. So what specifically--and this may be, Mr. 
Thrower, in your bailiwick, but I am happy to have the general 
comment as well.
    But what specifically--it does sound like LTS did a 
tremendous job in improving the timeliness of the process, 
processing these claims, but what else, if you had the money, 
what would you do to further expedite that or to cut the 21 
days into 6 days or cut it in half to 10 or 11 days?
    Mr. Thrower. Let me try to answer it this way, as I kind of 
have been working with the engineering team to sort of 
understand the landscape of the challenge we have ahead of us. 
Our first challenge really is to retire the Benefits Delivery 
Network, BDN.
    That will eliminate a 50-year-old system that is very risky 
in terms of its technology underneath of it. It is tied into 
all of the various--particularly into the education platforms. 
A lot of that retirement, which we will be doing over 2018, 
will actually take many of the benefits, things that we have 
done with Chapter 30, and make them available for all the other 
chapters. It will give us better consistency across the board.
    It will actually close off some of these, a couple of these 
GAO recommendations: For instance, the one about the monthly 
certifications. We will be able to manage certain things in 
that. But it will give us a platform that will be much, much 
simpler for us to be able to move forward and add on additional 
capabilities going forward.
    So our sense is that right now for us it is a timing issue 
now that we have the priority. You know, the Secretary has 
established a priority that education is sort of the area 
within the benefits portfolio that is the priority now.
    Starting with BDN, let's get the platform up to a certain 
level in this year, and then we can start layering new 
capabilities that won't just be available for one chapter or 
for one subset of veterans, but, as we layer these things on, 
they will be available for everyone.
    Mr. Arrington. If I recall, you said 10 days, on average, 
for DoD to share information when requested.
    General Worley. That is correct, Mr. Chairman. That is 
correct.
    Mr. Arrington. Would you guys work together and report back 
on being able to just integrate the system to where they can 
access that information without having to pick up the phone and 
whatever other manual steps that would need to be taken, and 
just access that information as part of their process as long, 
again, as it meets the security requirements and, you know, 
they can't change the information. I mean, you would know what 
you would need to feel comfortable in doing that.
    But would you guys work together and tell us if you can do 
it. And if you can't do it, please give us a good reason why 
you can't. That right there is several days.
    Does that seem like a reasonable thing to do and does it 
seem like something that you could easily attainable between 
the two agencies?
    General Worley. I would say so.
    Mr. Arrington. I am talking to Mr. Hebert.
    Mr. Hebert. Mr. Chairman, yes, absolutely.
    Mr. Arrington. It is hard to see my eyes from--
    Mr. Hebert. Sure. No problem.
    General Worley [continued]. And it is not that there isn't 
any of that right now. As you mentioned, the first thing a 
claims examiner does is go into the DPRIS system, the Defense 
Personnel Information System; and then the VISN, the system by 
which we access, the VATER, the DoD system.
    But the question is the quality of that data, and then are 
there other accesses or things that might be able to expedite 
the process.
    Mr. Arrington. Okay. Fair point.
    Okay. Any questions, anybody else on the Committee? Miss 
Rice, do you have any other further questions or comments?
    Well, I want to thank the panelists today for coming, and I 
appreciate your time and your thoughtful responses to our 
questions.
    I now ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous material. Without objection, so ordered.
    This hearing is now adjourned.

    [Whereupon, at 3:17 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

               Prepared Statement of Robert M. Worley II
    Good morning, Mr. Chairman, Ranking Member O'Rourke, and other 
distinguished members of the Subcommittee. I am pleased to be here 
today, along with Mr. Lloyd Thrower, Office of Information & Technology 
(OI&T) Acting Information Technology Account Manager, Benefits 
Portfolio, and VA Debt Management Center Director, Robbie Lowe to 
discuss the Department of Veterans Affairs (VA) education benefit 
programs and our ongoing efforts to ensure education benefits are 
administered appropriately and accurately. My testimony will highlight 
the status of our implementation of the eight recommendations in the 
Government Accountability Office (GAO) report entitled, ``POST-9/11 GI 
Bill: Additional Actions Needed to Help Reduce Overpayments and 
Increase Collections'' (GAO-16-42). I will also discuss a recent VA 
Education Service internal quality review audit, as well as the 
resources provided to VA Education Service to improve GI Bill 
processing times and outcomes for student Veterans.

Overview

    VA's education programs provide education and training benefits to 
eligible Servicemembers, Veterans, dependents, and survivors. These 
programs are designed to assist Veterans in readjusting to civilian 
life, help the Armed Forces both recruit and retain members, and 
enhance the Nation's economic competitiveness through the development 
of a more highly-educated and productive workforce.

GAO Report

    An October 2015 GAO report, ``POST-9/11 GI Bill: Additional Actions 
Needed to Help Reduce Overpayments and Increase Collections,'' examined 
the extent of Post-9/11 GI Bill overpayments, how effectively VA has 
addressed their causes, and the effectiveness of VA's collection 
efforts. GAO identified that VA made $416 million in Post-9/11 GI Bill 
overpayments in fiscal year 2014. GAO found that most overpayments were 
collected quickly, but as of November 2014 (when VA provided data to 
GAO), VA was still collecting $152 million in overpayments from fiscal 
year 2014, and an additional $110 million from prior years, primarily 
owed by Veterans with the remainder owed by schools. The report 
includes eight recommendations to improve the administration of the 
Post-9/11 GI Bill, reduce the occurrence of overpayments, and increase 
debt collections. VA agrees with these recommendations, and has been 
working to implement them.

    The status of VA's implementation of each recommendation is 
provided below.

    Recommendation 1: This recommendation calls for VA to improve 
program management by expanding monitoring of available information on 
overpayment debts and collections. This could include regularly 
tracking the number and amount of overpayments created and the 
effectiveness of collection efforts.

    VA Status: The Veterans Benefits Administration (VBA) worked in 
collaboration with VA's Debt Management Center (DMC) and GAO to update 
its procedures to track and report overpayments. VBA conducted an 
initial analysis on the top 100 student debts, finding approximately 80 
percent are related to transfer of entitlement (TOE) issues. To address 
these issues, VA created a TOE Fact Sheet for use by the Department of 
Defense (DoD). Additionally, VA established procedures for semi-annual 
reporting by DMC for both student and school debt data, which VBA will 
continue to analyze to identify trends, root causes and mitigation 
strategies. VA considers this recommendation fully implemented and is 
awaiting closure from GAO.

    Recommendation 2: This recommendation calls for VA to address 
overpayments resulting from enrollment changes by providing guidance to 
educate student Veterans about their benefits and consequences of 
changing their enrollment.

    VA Status: VBA is taking action to modify the initial and 
subsequent award letters issued to students. The modifications would 
include: (1) attaching Frequently Asked Questions (FAQ) to all award 
letters to provide more detailed information on education benefits and 
the consequences of changes in enrollment; (2) adding information in 
the Choosing the Right School guide; and (3) adding information in the 
Accessing Higher Education track of the Transition Assistance Program. 
Implementation of this functionality will be addressed in the 
reengineering of Education Service solutions currently in progress.

    Recommendation 3: The recommendation calls for VA to address 
overpayments resulting from enrollment changes by providing guidance to 
schools about the benefits of using a dual certification process where 
schools wait to certify the actual tuition and fee amounts until after 
the school's deadline for adding and dropping classes.

    VA Status: VBA has been encouraging schools to use the dual 
certification process for several years through direct communication 
with schools and through School Certifying Official (SCO) training 
conferences. In addition to these efforts, guidance to SCOs about the 
benefits of using the dual certification process was presented during a 
webinar on June 30, 2016, and guidance was included in the SCO Handbook 
update on February 15, 2017. In addition, an official letter from VBA 
on dual enrollments was mailed to schools on March 24, 2017. VA 
considers the recommendation related to dual certification fully 
implemented and has requested closure.

    Recommendation 4: This recommendation involves addressing 
overpayments resulting from enrollment changes by identifying and 
implementing a cost-effective way to allow Post-9/11 GI Bill 
beneficiaries to verify their enrollment status each month, and require 
monthly reporting.

    VA Status: The functionality for monthly certification of 
attendance for Post-9/11 GI Bill beneficiaries is similar to the 
current practice under the Montgomery GI Bill. This solution will allow 
claimants to certify their attendance before releasing a subsequent 
monthly housing allowance. Currently, VBA's systems release monthly 
housing payments without verification of attendance. Implementation of 
this functionality will be addressed in the reengineering of Education 
Service solutions currently in progress.

    Recommendation 5: This recommendation calls for VBA to improve its 
efforts to notify Veterans and schools about overpayment debts by 
identifying and implementing other methods of notifying Veterans and 
schools about debts to supplement the agency's mailed notices (e.g., e-
mail, eBenefits).

    VA Status: VBA has developed business requirements to add 
functionality for providing notification to schools via electronic 
means. Implementation of this functionality will be addressed in the 
reengineering of Education Service solutions currently in progress.

    Recommendation 6: This recommendation calls for VA to improve 
efforts to notify Veterans and schools about overpayment debts by 
including in debt letters information on both the cause of the debt and 
how to repay it.

    VA Status: DMC has completed modification of their debt letters to 
schools to include school term dates. VBA has modified Long Term 
Solution (LTS) letters to include both the cause of the debt and how to 
repay the debt. Implementation of this functionality will be addressed 
in the reengineering of Education Service solutions currently in 
progress.

    Recommendation 7: This recommendation calls for VA to revise its 
policy for calculating overpayments to increase collections by 
prorating tuition overpayments when Veterans reduce their enrollment 
during the term based on the actual date of the enrollment change 
rather than paying additional benefits through the end of the month 
during which the reduction occurred.

    VA Status: The ``end of month rule'' which requires the payment of 
benefits through the end of the month during which a reduction in 
enrollment occurred is codified in VA regulations (38 CFR <l-arrow> 
21.9635(d)). VBA has developed proposed revisions to the existing 
regulations which are currently under review.

    Recommendation 8: This recommendation calls for VA to ensure it is 
recovering the full amount of tuition and fee payments if a school does 
not charge a Veteran for any tuition or fees after dropping a class or 
withdrawing from school.

    VA Status: VBA implemented initial procedural actions to account 
for school refund policies. However, modifications to LTS are required 
to fully address this issue. Implementation of this functionality will 
be addressed in the reengineering of Education Service solutions 
currently in progress.

Internal Quality Review Audit

    VBA Education Service identified a need to improve the overall 
quality and internal controls of the Post-9/11 GI Bill program due to 
trends identified with some equitable relief and administrative error 
cases. Education Service requested an audit from VBA's Office of 
Internal Controls (OIC) regarding the eligibility percentage levels for 
Post-9/11 GI Bill beneficiaries. The key area of concern found by OIC 
related to the fact that certain active duty service is subject to 
exclusion when establishing Post-9/11 GI Bill benefit eligibility and 
not considered qualifying service.
    OIC reviewed a sample of over 78,000 cases since inception of the 
Post-9/11 GI Bill in August of 2009. Of those, approximately 14,000 
cases were referred to Education Service to review for proper 
accounting of initial active duty training and service dates. Education 
Service was able to resolve approximately 3,000 cases without further 
information from DoD. To complete this review, VA initially contacted 
DoD to verify the service information on the remaining 11,000 cases. 
This verification requirement created a hardship on DoD due to the 
volume of cases and the lack of DoD resources to answer requests.
    To remedy this situation, Education Service informed the point of 
contact for each DoD service component that VA would re-evaluate the 
11,000 cases to confirm that VA would in fact need DoD's assistance. VA 
then prioritized the cases based on claims with pending enrollment 
certifications or if a decision could be made with the service 
information currently available. Resources have been reallocated to 
process the cases as expeditiously as possible, and all VA claims 
processors have been retrained to ensure effective and efficient claim 
development with DoD. As of May 25, 2017, approximately 1,000 claims 
are still pending a decision.

Education Service Information Technology (IT) Resources

    In June 2008, Congress passed the Post-9/11 Veterans Educational 
Assistance Act, which established a new education benefit program under 
chapter 33 of title 38 United States Code, otherwise known as the Post-
9/11 GI Bill. VA OI&T contracted with the Department of the Navy's 
Space and Naval Warfare Systems Command (SPAWAR) to develop a long-term 
solution for education claims processing--an end-to-end claims 
processing solution that utilizes rules-based, industry-standard 
technologies for the delivery of education benefits. VA has deployed 
six major releases for LTS, including several releases of functionality 
to implement changes to the Post-9/11 GI Bill required by Public Law 
(P.L.) 111-377 (Post-9/11 Veterans Educational Assistance Improvements 
Act of 2010).
    On September 24, 2012, VA successfully activated end-to-end 
automation of supplemental claims for Post-9/11 GI Bill benefits, which 
are paid to Veterans and schools. During calendar year 2017, an average 
of over 5,200 claims per day were processed automatically without human 
intervention. Approximately 85 percent of all Post-9/11 GI Bill 
supplemental claims are either partially or fully automated.
    Since transitioning to sustainment, there has been no significant 
development for LTS or other supporting systems. However, VA has 
deployed six minor releases to add small improvements, fix defects, and 
install security enhancements to LTS.
    Additional LTS functionality needed to further increase efficiency 
and effectiveness in education claims processing includes: automated 
certificates of eligibility for original claims; electronically 
generated letters; expanded automation of supplemental claims; issuance 
of advance payments; monthly certification of attendance; and improved 
business analytics for reporting purposes.
    VA is prioritizing replacement of legacy systems due to the 
increased cost and risk of maintaining these systems. For example, the 
Benefits Delivery Network (BDN) is the claims processing, payment, 
tracking, and disposition system for education programs. It consists of 
antiquated mainframe systems and is in need of replacement. Support and 
maintenance are difficult or impossible to find for 70's-era systems 
like BDN - warranties have expired, security best practices that are 
common on newer systems cannot be used, integration with newer systems 
is increasingly difficult to support, and the knowledge pool for 
ongoing support and maintenance is becoming nonexistent as experts 
retire. These and other risks involved in operating in this environment 
have made the replacement of BDN a high priority for VA.
    Additionally, there are a number of other legacy systems such as 
the Web Enabled Approval Management System (WEAMS), VA-Online 
Certification of Enrollment (VA-ONCE), Electronic Certification 
Automated Processing (ECAP), and the Work Study Management System that 
are in need of modernization and further automation.
    VBA and OI&T continue to assess IT capabilities for Education 
Service. Our goal, as always, is to improve our systems in order to 
ensure that Servicemembers, Veterans, and their families have every 
opportunity to attain personal and economic success.

Conclusion

    Mr. Chairman, this concludes my statement. We would be pleased to 
answer questions from you or other members of the Subcommittee.

                                 <F-dash>
               Prepared Statement of Mr. Lernes J. Hebert
    Good afternoon, Chairman Arrington, Ranking Member O'Rourke, and 
esteemed members of the Subcommittee. I am pleased to appear before you 
today to discuss improvements to the quality and timeliness of GI Bill 
processing for student Veterans.
    The Department of Defense (DoD) takes our responsibility for 
ensuring Veterans have access to their benefits very seriously. 
Together with our partners from the Department of Veterans Affairs 
(VA), we work hard to ensure that accurate information is available to 
determine a Veteran's eligibility for education benefits. We recognize 
that the road to becoming a Veteran is always through service in the 
military. Accurate reporting of that service is vital to the 
determination of eligibility for all post-service education benefits. 
DoD has been providing data on member military service to the VA since 
the enactment of the Montgomery GI Bill in 1985; during this time, a 
strong and enduring relationship has developed.
    For today's hearing, I will focus on the role that DoD plays in 
providing data to the VA for the Post-9/11 GI Bill, and how our two 
Departments continue to work together to ensure the successful 
administration of this program. The strong relationship between DoD and 
VA benefits Service members, Veterans, and their families.
    Since 2003, the Department has been providing automated daily 
updates of Service member and Veteran personnel data to the VA. From 
the day someone enlists or is commissioned into the military, DoD sends 
that person's electronic record to the VA, and we update this 
information as it changes. Since the implementation of the Post-9/11 GI 
Bill, whenever a Service member elects to transfer educational benefits 
to a family member, we also include those family members in the VA and 
DoD Information Repository. This provides the VA with daily updates to 
approved Service member transfers of this benefit, and allows the VA to 
administer the related payments.
    To assist in resolving questions about a Service member's or 
Veteran's record, direct lines of communication link the VA Regional 
Processing Offices with each of the Service Components. This process 
allows VA claims examiners to get quick updates or clarifications for a 
Veteran's record of service.
    DoD monitors the data reported to the VA to ensure a timely and 
efficient process for determining eligibility for Post-9/11 GI Bill 
benefits for members and their families. In keeping with this 
responsibility, we are focusing on two areas for improvement. The first 
area involves missing initial training end dates, which can be crucial 
to Post-9/11 GI Bill benefit eligibility in some situations. In August 
2009, we added a space on the Certificate of Release or Discharge from 
Active Duty (the DD 214) to capture the initial training end dates; 
this information is included in the data exchange from DoD to VA. 
However, because this information was not captured before 2009, 
individuals who entered or separated prior to that time may not have 
the requisite data in their records. We have identified approximately 
40,000 Regular Component Veterans with less than 24 months total 
service time, whose records do not have an Initial Training End 
Calendar Date. We are currently working to resolve the missing values, 
with a goal of completing this effort by September 30, 2017. If a 
Veteran from this population applies for benefits in the interim, we 
will work with the VA to expedite resolution on a case-by-case basis.
    Our second area of focus involves missing qualifying active service 
segments for Reserve and Guard members. The elimination of the Reserve 
Education Assistance Program resulted in the transfer of its 
participants to the Post-9/11 GI Bill, presenting data challenges, 
which we have subsequently addressed. However, the time lag in updating 
data requirements resulted in incomplete information on periods of 
qualifying active service for members of the Reserve and Guard 
Components from September 11, 2001 to 2011. As a result, the VA claims 
examiners must work with the their Service counterparts to develop most 
Reserve and Guard benefit requests manually, to ensure all qualifying 
periods are captured in determining the final Post-9/11 benefit amount. 
This manual review creates a burden on the Services in order to report 
Reserve and Guard eligibility to the VA, and also adds time for VA 
Claims Examiners to administer the benefit. This affects all Service 
Veterans and family members applying for their Post-9/11 GI Bill 
benefits.
    The Department of Defense is absolutely committed to taking care of 
Veterans and ensuring the success of the Post-9/11 GI Bill. The Post-9/
11 GI Bill will have major impacts on military recruiting and 
retention, and few areas are more important to us. To address the data 
shortfall, my office and the Defense Manpower Data Center will meet 
with each Reserve Component to develop a plan for significant process 
improvement to resolve the missing active service data and address data 
quality issues by the end of the year. Going forward, I will institute 
a governance structure that includes the VA and other agencies. The 
governing body will be responsible for improving the quality and 
timeliness of GI Bill processing for student Veterans.
    Mr. Chairman this concludes my statement. I thank you and the 
members of this Subcommittee for your outstanding and continuing 
support of our Service members, Veterans, survivors, and their 
families.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
